           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



      FOLLOW-UP ON THE SOCIAL
     SECURITY ADMINISTRATION’S
        PRISONER INCENTIVE
         PAYMENT PROGRAM

      August 2009   A-01-09-19029




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                          SOCIAL SECURITY
MEMORANDUM

Date:   August 20, 2009                                                            Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Follow-up on the Social Security Administration’s Prisoner Incentive Payment Program
        (A-01-09-19029)


        OBJECTIVE
        Our objective was to assess the accuracy of incentive payments to prisons.

        BACKGROUND
        The Social Security Act1 (Act) allows the Social Security Administration (SSA) to make
        incentive payments to State and local correctional institutions that provide inmate data
        to SSA. The incentive payment provisions in the Act were established to encourage the
        reporting of inmate data that would allow SSA to suspend Old-Age, Survivors and
        Disability Insurance (OASDI) and Supplemental Security Income (SSI) benefits to
        prisoners in a timely manner.2

        Incentive payments are authorized in the following amounts:
               $400 for information received within 30 days after the individual’s date of
                confinement due to conviction for an OASDI beneficiary or confinement for an
                SSI recipient;
               $200 for information received after 30 days but within 90 days after the
                individual’s date of confinement due to conviction for an OASDI beneficiary or
                confinement for an SSI recipient; or



        1
         The Social Security Act, §§ 202(x)(3)(B)(i) and 1611(e)(1)(l)(i); 42 U.S.C. §§ 402(x)(3)(B)(i) and
        1382(e)(1)(I)(i).
        2
          The Social Security Act, §§ 202(x)(1)(A)(i) and 1611(e)(1)(A); 42 U.S.C. §§ 402(x)(1)(A)(i) and
        1382(e)(1)(A) prohibit the payment of benefits to individuals receiving (1) OASDI benefits who have been
        convicted and incarcerated for a period of more than 30 days in a jail, prison or other penal or correctional
        facility and (2) SSI payments who have been confined in a public institution throughout any month.
Page 2 - The Commissioner


         $0 for information received on or after the 91st day following the individual’s date
          of confinement due to conviction for an OASDI beneficiary or confinement for an
          SSI recipient (see Appendix B for additional background information).

SSA programmed its incentive payment system to issue $400 for inmate information
received by the end of the month following the month of incarceration and $200 for
information received by the end of the 3rd month after the month of confinement. In
addition, the system has a built-in delay of 1 calendar month before the payment is
issued. If, during the next month, it is determined that benefits should not be
suspended because of incarceration, the incentive payment will not be released.3
SSA’s policies and procedures state that if an incentive payment was released, but
benefits should not have been suspended because of incarceration, the payment
cannot be recovered.4

If SSA inadvertently pays a facility because of an SSA error (for example, SSA keyed
incorrect incarceration data into the computer system), SSA will not litigate to recoup
the erroneous payment. The Agency will ask the correctional institution to return the
payment.5 If the correctional institution agrees to refund the incentive payment, SSA
will take action to recoup the payment.6 If SSA pays an incentive payment to the wrong
facility, it will issue the incentive payment to the correct institution at the earliest possible
opportunity.7

In our prior audit,8 we reviewed incentive payments made between March 1997 and
August 2003; and we estimated that about 86,000 incentive payments were issued
incorrectly, resulting in approximately $19.0 million in OASDI and SSI funds that should
not have been paid. Therefore, we recommended that SSA
      1. pay incentive payments in accordance with the Act provisions, and
      2. provide refresher training to employees to reduce the number of erroneous
         incentive payments due to clerical errors.9



3
    SSA, Modernized Systems Operations Manual, PRISON 003.001 F.
4
    SSA, Program Operations Manual System (POMS), section SI 02310.089 E.
5
    SSA, POMS, section SI 02310.091 B.1.
6
    SSA, POMS, section SI 02310.091 C.
7
    SSA, POMS, section SI 02310.091 B.1.
8
 The Social Security Administration’s Prisoner Incentive Payment Program (A-01-04-24067),
July 30, 2004.
9
  SSA issued an Administrative Message (AM-05-038) on March 16, 2005 to remind employees involved
in processing prisoner alerts of common clerical errors that result in the issuance of erroneous incentive
payments.
Page 3 - The Commissioner


SSA generally agreed with our recommendations. Specifically, SSA agreed there was a
discrepancy between the incentive payment provisions included in the Act and how the
Agency was paying incentive payments, and agreed to provide staff training.

To perform our follow-up review, we identified 346,970 incentive payments made from
September 2003 through May 2008. We randomly selected 275 cases from this
population for detailed analysis. (See Appendix C for our sampling methodology.)

RESULTS OF REVIEW
SSA’s procedures do not ensure that incentive payments to institutions that provide
inmate information are being made in accordance with the provisions in the Act. Based
on our review of 275 sample cases, we estimate about 119,862 incentive payments
were issued incorrectly, resulting in approximately $30.3 million in OASDI and SSI
program funds that should not have been paid. Specifically, our review of 275 sample
cases found that

                                                           •   180 incentive payments
       Sample Results – Incentive Payments                     (65 percent) were paid properly;
                                                           •   66 incentive payments totaling
     Incentive Payments Correct    Incentive Payments          $13,200 (24 percent) were
                65%               Improperly Paid 24%          improperly paid to prison facilities
                                                               because the information was not
                                                               received within the timeframe
                                                               established by law but was
                                                               received within the timeframe
                                                               implemented by SSA; and
                                  Incentive Payments Not
                                         Due 11%           •   29 incentive payments (11 percent)
                                                               totaling $10,800 should not have
                                                               been paid.

Incentive Payments Not Made in Accordance with the Social Security Act

The laws that amended the Act10 to establish incentive payments included timeframes
for the issuance and amount of payments. However, when implementing the incentive
payment process, SSA established payment criteria that were inconsistent with those
laws. As a result, $13,200 was overpaid in our incentive payment sample cases.




10
  The Ticket to Work and Work Incentives Improvement Act of 1999, Pub. L. No. 106-170 § 402 and the
Personal Responsibility and Work Opportunity Reconciliation Act of 1996, Pub. L. No. 104-193 § 203.
Page 4 - The Commissioner


The following is an example of an incentive payment incorrectly paid because SSA did
not follow the requirements in the Act.
        •   SSA received a report from an institution on June 18, 2007 showing a date of
            confinement of May 4, 2007 (45 days from confinement to receipt of
            information).
        •   SSA issued an incentive payment on August 1, 2007 for $400, as the prisoner
            information was received before the end of the month following the month of
            confinement.
        •   The institution was overpaid $200, as only $200, not $400, should have been
            paid for information received 45 days after confinement.

The following table shows detailed information on the incorrect payments made for our
sample cases that exceeded the 30-day and 90-day limits established in the Act.

                                                              Amount
                                                                            Total Amount         Portion of
     Timeframe of Receipt of Inmate             Number        of Each
                                                                             of Incorrect        Incorrect
       Information and Amount of                  of         Incorrect
                                                                              Incentive          Incentive
            Incentive Payment                    Cases       Incentive
                                                                              Payments           Payments
                                                             Payment
$400 paid for information received 1 to
                                                    30          $200              $6,000             45%
5 days after the 30-day time limit11
$400 paid for information received 6 to 10
                                                    16          $200              $3,200             24%
days after the 30-day time limit
$400 paid for information received 11 to
                                                    10          $200              $2,000             15%
15 days after the 30-day time limit
$400 paid for information received
                                                     5          $200              $1,000              8%
16 to 20 days after the 30-day time limit
$400 paid for information received
                                                     1          $200                $200              2%
21 to 25 days after the 30-day time limit
$400 paid for information received
                                                     2          $200                $400              3%
26 to 60 days after the 30-day time limit
$200 paid for information received after
                                                     2          $200                $400              3%
the 90-day time limit
                   Total                            66                          $13,200            100%




11
   Under the Social Security Act, SSA should have paid $200 for information received after 30 days but
within 90 days. However, SSA paid $400 for this information—instead of $200. Therefore, SSA overpaid
the prison facility when it paid $400 for information that was received 1 to 5 days after the 30-day time
limit.
Page 5 - The Commissioner


Incentive Payments Issued Erroneously

In 29 sample cases, SSA should not have made incentive payments totaling $10,800.
      •   In 23 cases, the recipient was released from prison before the date benefits
          would have been suspended, and no incentive payment should have been
          made. This resulted in overpayments totaling $8,800.
      •   In five cases, the person identified by SSA’s computer matching program was
          not the correct person, and SSA personnel did not verify the identity before
          issuing the payment. This resulted in overpayments totaling $1,600.
      •   In one case, the prisoner was not convicted and therefore no payment was
          due to the prison. This resulted in an overpayment totaling $400.

The following are two examples of incentive payments that should not have been paid.

(1) An incentive payment was paid for the wrong beneficiary.

      •   SSA received a report from an institution on September 22, 2003 showing a
          date of confinement of August 1, 2003.
      •   SSA suspended the reported prisoner’s benefits without determining whether
          the correct beneficiary had been identified.
      •   SSA later found this individual was never in the institution that sent the inmate
          information.

(2) An incentive payment was paid although incarceration was too short to suspend SSI
    payments.

      •   SSA received a report from an institution on August 11, 2003 showing a date
          of confinement of July 11, 2003.
      •   SSA suspended the prisoner’s benefits.
      •   The beneficiary was not incarcerated for 1 full calendar month. Therefore,
          benefits should not have been suspended.
      •   The SSA technician did not post a release date to show the beneficiary was
          released before 1 full calendar month expired.
      •   Posting of a release date would have suppressed the incentive payment.
Page 6 - The Commissioner


SSA’s Efforts to Reduce Incorrect Incentive Payments

SSA informed us that, in June 2004, the Agency developed a technical amendment
that, if enacted, would align the Act with how SSA programmed its systems to pay
prisoner incentive payments. The agency never submitted the proposal to Congress.
According to SSA, the specific proposal was to change the language in sections
202(x)(3)(B)(i)(II) and 1611(e)(1)(I)(i)(II) of the Act to conform existing statute with
agency policy.
       •   $400 if the institution furnishes the information to SSA by the end of the
           month following the month of confinement that the individual is confined in the
           institution;
       •   $200 if the institution furnishes the information more than 1 month after the
           month of confinement through the end of the month following 2 months after
           the confinement; and
       •   $0 if reported anytime thereafter.

In March 2009, SSA informed us that it implemented a new Web-based process to
receive prisoner information more timely. This new process is intended to help
eliminate the lag time associated with mailing prisoner reports.

CONCLUSION AND RECOMMENDATIONS
SSA did not adhere to incentive payment provisions included in the Act when making
payments to facilities that reported inmate information. Therefore, SSA incorrectly paid
them. By making correct incentive payments in the future, SSA can ensure funds are
not inappropriately expended from either the Social Security Trust Fund or the General
Fund.

To prevent improper payments, we recommend that SSA implement a system to pay
incentive payments according to the Act to facilities reporting inmate information.

AGENCY COMMENTS

SSA generally agreed with our recommendation. Specifically, SSA agreed that there is
a discrepancy between the incentive payment provisions included in the Social Security
Act and how the Agency is paying incentive payments. SSA developed a technical
amendment to bring the language in the Social Security Act in line with its incentive
payment policy. SSA plans to include the amendment in a package of draft legislation it
will consider for the next legislative cycle. SSA’s comments are included in Appendix D.


                                                S
                                                    Patrick P. O’Carroll, Jr.
                                   Appendices
APPENDIX A – Acronyms
APPENDIX B – Background
APPENDIX C – Scope, Methodology and Sample Results
APPENDIX D – Agency Comments
APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                            Appendix A

Acronyms
Act           Social Security Act
OASDI         Old-Age, Survivors and Disability Insurance
POMS          Program Operations Manual System
Pub. L. No.   Public Law Number
SSA           Social Security Administration
SSI           Supplemental Security Income
U.S.C.        United States Code
                                                                            Appendix B

Background
Title II

Section 402 of the Ticket to Work and Work Incentives Improvement Act of 19991
amended section 202(x)(3) of the Social Security Act to provide for incentive payments
from Title II program funds to State and local correctional institutions and certain mental
health institutions that report inmate information to the Social Security Administration
(SSA). The Law authorized payment to an institution for information about an inmate if
the inmate was receiving a Title II benefit for the month that preceded the first month in
which the inmate was in the institution and became ineligible for such benefit.

Effective April 1, 2000, this law authorized SSA to pay the Title II incentive payment in
the following amounts:
          $400 for information received within 30 days after the individual’s date of
           confinement for conviction;
          $200 for information received after 30 days but within 90 days after the
           individual’s date of confinement for conviction; or
          $0 for information received on or after the 91st day following the individual’s date
           of confinement for conviction.

Title XVI

Section 203 of the Personal Responsibility and Work Opportunity Reconciliation Act of
19962 amended section 1611(e)(1) of the Social Security Act to provide for incentive
payments from Title XVI program funds to State and local correctional institutions and
certain mental health institutions that report inmate information to SSA. The Law
authorized payment to an institution for information about an inmate if the inmate was
receiving a Title XVI payment for the month that preceded the first month throughout
which the inmate was in the institution and became ineligible for such benefit.




1
    Pub. L. No. 106-170, enacted December 17, 1999.
2
    Pub. L. No. 104-193, enacted August 22, 1996.


                                                    B-1
Effective March 1, 1997, this law authorizes SSA to pay the Title XVI incentive payment
in the following amounts:
      $400 for information received within 30 days after the individual’s date of
       confinement;
      $200 for information received after 30 days, but within 90 days, after the
       individual’s date of confinement; or
      $0 for information received on or after the 91st day following the individual’s date
       of confinement.




                                            B-2
                                                                        Appendix C

Scope, Methodology and Sample Results
To accomplish our objective, we:

   Reviewed applicable sections of the Social Security Act and other relevant
    legislation, as well as the Social Security Administration’s (SSA) regulations, rules,
    policies, and procedures.

   Reviewed prior Office of the Inspector General reports.

   Obtained a file from SSA’s Prisoner Update Processing System of 346,970 incentive
    payments totaling $129.4 million made from September 2003 through May 2008.

   From this population, we selected a random sample of 275 cases. For each sample
    case, we:

       9 Reviewed the Master Beneficiary and/or Supplemental Security Record and
         SSA’s prisoner system information related to the incentive payment.

       9 Analyzed information to determine whether the incentive payments were
         appropriate according to the provisions in the Social Security Act. For cases
         in which we could not determine whether incentive payments should have
         been made, we asked SSA to determine whether the payments were correct.

We performed our audit between February and May 2009 in Boston, Massachusetts.
We tested the data obtained for our audit and determined them to be sufficiently reliable
to meet our objective. The entity audited was the Office of Income Security Programs
under the Deputy Commissioner for Retirement and Disability Policy. We conducted
this performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe the evidence obtained provides
a reasonable basis for our findings and conclusions based on our audit objectives.




                                            C-1
                         Table C-1: Sample Results and Projections
Population size                                                                      346,970
Sample size                                                                                275
                                        Attribute Projections
Number of incentive payments paid incorrectly                                              95
Point estimate of incorrect payments in the population                               119,862
   Projection lower limit                                                            103,365
   Projection upper limit                                                            137,229
                                          Dollar Projections
Amount of incentive payments paid incorrectly                                        $24,000
Point estimate of amount of incentive payments paid                               $30,281,018
incorrectly in the population
   Projection lower limit                                                         $25,757,493
   Projection upper limit                                                         $34,804,543
All projections are at the 90 percent confidence level.



                       Table C-2: Overpaid Incentive Payments by Year
                                                            Number of           Amount of
                             Number of Cases
   Calendar Year                                          Improperly Paid   Improper Incentive
                               in Sample
                                                              Cases             Payments
         2003                          18                        5                $1,400
      (Sept. – Dec.)
         2004                          54                       20                $5,600
         2005                          52                       17                $4,200
         2006                          63                       24                $5,800
         2007                          70                       24                $5,800
         2008                          18                        5                $1,200
      (through May)
         Total                       275                        95               $24,000




                                                    C-2
                  Appendix D

Agency Comments
                                        SOCIAL SECURITY
MEMORANDUM


Date:      August 11, 2009                                                     Refer To: S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Margaret J. Tittel /s/
           Acting Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, “Follow-up: The Social Security
           Administration’s Prisoner Incentive Payment Program” (A-01-09-19029)--INFORMATION


           Thank you for the opportunity to review and comment on the draft report. We appreciate OIG’s
           efforts in conducting this review. Attached is our response to the report findings and
           recommendation.

           Please let me know if we can be of further assistance. Please direct staff inquiries to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Response




                                                        D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, "FOLLOW-UP ON THE SOCIAL SECURITY ADMINISTRATION’S
PRISONER INCENTIVE PAYMENT PROGRAM" (A-01-09-19029)

Please find below our response to the recommendation and some technical comments to enhance
the accuracy of the report.

Recommendation

Implement a system to pay incentive payments according to the Act to facilities reporting inmate
information.

Comment

We agree there is a discrepancy between the incentive payment provisions in the statute and the
procedures we follow to issue incentive payments. Sections 202(x)(3)(B)(i)(I) and
1611(e)(1)(I)(i)(I) of the Social Security Act (“the Act”) require correctional and mental health
institutions to report their inmate information to us on a monthly basis. For information that
results in a suspension of an inmate's benefit payments, sections 202(x)(3)(B)(i)(II) and
1611(e)(1)(I)(i)(II) of the Act state we will pay the institution $400 if the institution furnishes the
information to us within 30 days after the date the individual is confined in the institution, and
$200 if the institution furnishes the information after 30 days, but within 90 days of the date of
confinement.

For an institution to obtain the maximum incentive payment of $400, the institution would have
to report their inmate data to us at least twice a month instead of monthly. To avoid this
potential hardship on institutions and to encourage full participation in the incentive payment
program, we accept reports made in the month following the month of confinement as meeting
the 30-day requirement. This interpretation facilitated successful recruitment of correctional
institutions to the program and keeps them participating.

The prisoner reporting operation is one of the most efficient and effective computer-matching
operations to prevent benefit overpayments and fraud, waste, and abuse of both trust fund and
general fund resources. We have agreements with 99 percent of the State and local institutions
that house prisoners. Those institutions that do not participate generally hold inmates less than
one full calendar month or consider the program a resource burden. Since 1997, we have
suspended benefit payments to 719,000 inmates. For this fiscal year, we estimate saving
approximately $1.2 billion in overpayments due to prisoner benefit suspensions. The
administrative time allowance we currently provide to correctional institutions ensures that they
report inmate information to us monthly as prescribed by law. Their continued participation in
our prisoner reporting operation is critical to suspending benefits as quickly as possible,
protecting both the trust funds and the general fund.

In June 2004, we developed a technical amendment to bring the language in the Social Security
Act in line with our incentive payment policy. However, we did not include this proposal in an
agency bill to Congress. We do plan to include the proposal in a package of draft legislation that


                                                 D-2
we will consider for the next legislative cycle. We believe it is the most appropriate approach to
solve the discrepancy between the Act and our policy. The technical amendment would change
the law to allow correctional institutions to report inmate information to us by the end of the
month following the month of confinement.

We considered requiring institutions to report confinements within the specified time required by
the Act in order to receive the $400 payment. However, we believe that this reporting change
would create a significant administrative burden on institutions. Given other competing
priorities and finite systems resources for both the correctional institutions and us, we believe a
technical amendment remains the most effective solution.




[In addition to the information listed above, SSA also provided technical comments
which have been addressed, where appropriate, in this report.]




                                               D-3
                                                                     Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Judith Oliveira, Director, Boston Audit Division

   David Mazzola, Audit Manager

Acknowledgments

In addition to those named above:

   Kevin Joyce, IT Specialist

   Katie Toli, Auditor

   Brennan Kraje, Statistician

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-01-09-19029.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
